20

APPENDIX

(1 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 1 of 8

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
SEP 17 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
MICHAEL BURCIAGA,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

19-55006

D.C. No.
2:17-cv-03830-JVS-PJW

v.
RAYMOND MADDEN, Warden, Centinela
State Prison,

MEMORANDUM*

Respondent-Appellee.
Appeal from the United States District Court
for the Central District of California
James V. Selna, District Judge, Presiding
Submitted April 2, 2020**
Pasadena, California
Before: CALLAHAN and LEE, Circuit Judges, and LYNN,*** District Judge.
Michael Burciaga was convicted in Los Angeles County Superior Court of
shooting at an occupied motor vehicle, unlawful possession of a firearm by a felon,

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Barbara M. G. Lynn, Chief United States District
Judge for the Northern District of Texas, sitting by designation.

A1

(2 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 2 of 8

and the attempted murders of Eddie Campbell and Adrian Torres. The jury found
that Burciaga committed the attempted murders with premeditation and
deliberation and also committed the attempted murders and the vehicle shooting
for the benefit of his gang and with the specific intent to assist criminal conduct by
members of the gang, qualifying Burciaga for certain sentencing enhancements.
On appeal, the California Court of Appeal found insufficient evidence to maintain
the gang enhancement for the attempted murder of Campbell, but otherwise
affirmed the verdict.1
Burciaga filed a petition for writ of habeas corpus with the district court,
claiming insufficient evidence of premeditation and deliberation for both attempted
murders and of specific intent for the remaining gang enhancements. The district
court denied the petition on all grounds, but granted a certificate of appealability as
to the sufficiency of the evidence of premeditation and deliberation for the
attempted murder of Torres. Burciaga now appeals the district court’s denial of
habeas relief and seeks certificates of appealability on the remaining issues.2

1

The California Court of Appeal found that, although gang members were at the
scene, there was no evidence that Burciaga acted with them when he attempted to
murder Campbell. In contrast, the court found that the evidence of Burciaga’s
cooperation with a gang member, Robert Valdivia, when Burciaga shot at Torres
was sufficient for the remaining gang enhancements.
2
Burciaga also filed a Motion to Take Judicial Notice of a photograph of the house
at which the shootings took place, admitted at trial as People’s Exhibit 4, and an
aerial image of the house prepared by Burciaga’s counsel. The Motion is granted
with respect to People’s Exhibit 4, and denied with respect to the aerial image.
2
A2

(3 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 3 of 8

A petition for habeas relief challenging the sufficiency of the evidence must
establish that, after viewing the evidence in the light most favorable to the
prosecution, “no rational trier of fact could have found proof of guilt beyond a
reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 324 (1979). Under the
Antiterrorism and Effective Death Penalty Act of 1996, relief is available if the
California Court of Appeal’s decision to affirm Burciaga’s conviction was an
unreasonable application of clearly established federal law. 28 U.S.C.
§ 2254(d)(1).
There was sufficient evidence to support the jury’s finding that Burciaga
acted with premeditation and deliberation when shooting at Torres. Premeditation
and deliberation require advanced thought and the “careful weighing of
considerations in forming a course of action.” People v. Cole, 33 Cal. 4th 1158,
1224 (2004). Evidence demonstrating premeditation and deliberation includes: (1)
planning; (2) motive; and (3) manner of the crime. People v. Anderson, 70 Cal. 2d
15, 26–27 (1968).
Shortly before Burciaga fired at Torres, Robert Valdivia identified Torres’
presence by yelling, “That’s his nephew. Get him.” This evidences that Burciaga
and Valdivia came to an agreement for Burciaga to shoot Torres, though the time
of the dialogue was brief. See People v. Bolin, 18 Cal. 4th 297, 332 (1998), as
modified on denial of reh’g (Aug. 12, 1998). Furthermore, both Burciaga and

3
A3

(4 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 4 of 8

Torres were members of the Puente Trece gang. Torres may have had a “Puente”
tattoo on his forehead at the time, and Burciaga may have seen Campbell—an
“original” and presumably well-known member of Puente Trece—hand Torres a
gun.
Given the internal strife in the Puente Trece gang at the time, Burciaga and
Torres’ common membership in the gang supports the reasonable inference that
there was gang-related animosity between them. Potential gang rivalries can
support the existence of “a preplanned, purposeful resolve to shoot” gang rivals.
See People v. Sanchez, 26 Cal. 4th 834, 849 (2001) (emphasis present). Even if
Burciaga did not know Torres or his gang affiliation, Burciaga may still have
considered Torres a gang rival because Torres was associated with Campbell, a
well-known gang member with whom Burciaga’s brother had animosity. See
People v. Rand, 37 Cal. App. 4th 999, 1001–02 (Ct. App. 1995). Given the
evidence of planning and motive, a rational trier of fact could have found beyond a
reasonable doubt that Burciaga acted with premeditation and deliberation when he
fired at Torres, and the California Court of Appeal’s decision affirming the
conviction was not an unreasonable application of federal law. See Davis v.
Woodford, 384 F.3d 628, 640 (9th Cir. 2004).
Burciaga also challenges (1) the sufficiency of the evidence as to whether he
shot Campbell with premeditation and deliberation and (2) whether he possessed

4
A4

(5 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 5 of 8

the necessary specific intent when he shot at Torres, who was in an occupied
vehicle, to apply the gang enhancement. We construe Burciaga’s briefing of these
uncertified issues as a motion to expand the certificate of appealability. See 9th
Cir. R. 22-1(e). So construed, we grant the certificates, assuming Burciaga “has
made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2); see Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (“Under the
controlling standard, a petitioner must show that reasonable jurists could debate
whether . . . the petition should have been resolved in a different manner or that the
issues presented were adequate to deserve encouragement to proceed further.”)
(internal quotation marks and alteration omitted).3 However, we deny Burciaga’s
sufficiency claims on the merits.4
Consideration of the Anderson factors supports the sufficiency of the
evidence of Burciaga’s premeditation and deliberation when he shot Campbell.
After Campbell announced that he did not have a gun, Burciaga approached him
and then shot him during their argument. It was reasonable for the jury to infer

3

In his opening brief, Burciaga also challenges the sufficiency of the evidence of
specific intent for the gang enhancement to his firearm possession charge.
However, the record indicates that the jury did not find the gang enhancement for
the firearm possession charge. Accordingly, Burciaga’s request for a certificate of
appealability on that issue is denied.
4
Under Ninth Circuit Rule 22-1(f), we must allow the respondent an opportunity to
brief any previously uncertified issues before we grant relief. Because we deny
relief for Burciaga’s previously uncertified claims, we find no need to require
further briefing on those issues.
5
A5

(6 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 6 of 8

that Burciaga approached the unarmed Campbell with a gun and a plan to shoot
him, if warranted when they talked. See People v. Romero, 44 Cal. 4th 386, 401
(2008). Burciaga also shot Campbell in the stomach at point-blank range, further
demonstrating premeditation and deliberation. See People v. Koontz, 27 Cal. 4th
1041, 1082 (2002) (firing at a vital area of the body at close range is evidence of
premeditation and deliberation.). Viewing the trial record in the light most
favorable to the prosecution, a rational juror could have concluded that Burciaga
acted with premeditation and deliberation when shooting Campbell. The
California Court of Appeal did not unreasonably apply federal law in affirming
that conviction.
There was also sufficient evidence that Burciaga shot at Torres with the
necessary specific intent to apply the gang enhancement. Cal. Penal Code
§ 186.22(b) requires proof that Burciaga committed the charged offenses “for the
benefit of, at the direction of, or in association with any criminal street gang, with
the specific intent to promote, further, or assist in any criminal conduct by gang
members.” A jury may infer specific intent to promote, further, or assist if the
“evidence establishes that the defendant intended to and did commit the charged
felony with known members of a gang.” People v. Albillar, 51 Cal. 4th 47, 68
(2010).
Valdivia yelled, “That’s his nephew. Get him,” before Burciaga shot at the

6
A6

(7 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 7 of 8

vehicle in which Torres sat. Valdivia was a member of the Perth Street clique of
Puente Trece. Given Burciaga’s willingness to accept the suggestion from
Valdivia to commit a violent act, Burciaga likely knew Valdivia’s identity and
gang membership. This certainly supports a reasonable inference that Burciaga
acted with a known Puente Trece–Perth Street clique member to shoot at an
occupied vehicle and attempt to murder Torres. Viewing the evidence in the light
most favorable to the prosecution, a rational juror could have concluded that
Burciaga acted with the necessary specific intent. Moreover, the California Court
of Appeal did not unreasonably apply federal law when it held that there was
sufficient evidence of specific intent to apply gang enhancements to Burciaga’s
attempted murder of Torres and shooting of an occupied vehicle.
On appeal, Burciaga challenges, for the first time, the gang enhancements
based on the sufficiency of the evidence as to the existence of the gang that
Burciaga allegedly sought to promote, further, or assist. A habeas petitioner must
exhaust his state remedies before filing a petition for relief under 28 U.S.C. § 2254.
Manning v. Foster, 224 F.3d 1129, 1132 (9th Cir. 2000). A procedural default
from the failure to do so may be excused if the petitioner “can demonstrate cause
for the default and actual prejudice . . . or demonstrate that failure to consider the
claims will result in a fundamental miscarriage of justice.” Coleman v. Thompson,
501 U.S. 722, 750 (1991). The latter is reserved for “an extraordinary case, where

7
A7

(8 of 12)
Case: 19-55006, 09/17/2020, ID: 11827221, DktEntry: 45-1, Page 8 of 8

a constitutional violation has probably resulted in the conviction of one who is
actually innocent.” Murray v. Carrier, 477 U.S. 478, 496 (1986). Such an
innocence claim requires “new reliable evidence . . . that was not presented at
trial.” Cook v. Schriro, 538 F.3d 1000, 1028 (9th Cir. 2008).
We see no cause to excuse Burciaga’s procedural default. He has not
demonstrated a fundamental miscarriage of justice as he does not claim actual
innocence or present any new evidence. Therefore, his argument that there was
insufficient evidence to establish the existence of a gang, to support the gang
enhancement, is not properly before us.
AFFIRMED.

8
A8

Case 2:17-cv-03830-JVS-PJW Document 39 Filed 12/04/18 Page 1 of 1 Page ID #:2176

1
2
JS-6
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

MICHAEL BURCIAGA,

11
12
13
14

Petitioner,
v.
WARDEN, CENTINELA STATE PRISON,
Respondent.

)
)
)
)
)
)
)
)
)
)

CASE NO. CV 17-3830-JVS (PJW)
J U D G M E N T

15
16
17
18
19

Pursuant to the Order Accepting Report and Adopting Findings,
Conclusions, and Recommendations of United States Magistrate Judge,
IT IS ADJUDGED that the Petition is denied and this action is
dismissed with prejudice.

20
DATED: December 4, 2018.
21
22
23
24

JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

25
26
27
28

C:\Users\isabelmartinez\AppData\Local\Temp\notes95E17C\MJ - Burciaga - Judgment.wpd

A9

Case 2:17-cv-03830-JVS-PJW Document 38 Filed 12/04/18 Page 1 of 2 Page ID #:2174

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10

MICHAEL BURCIAGA,

11

Petitioner,

12
13

v.
WARDEN, CENTINELA STATE PRISON,

14

Respondent.

)
)
)
)
)
)
)
)
)
)

CASE NO. CV 17-3830-JVS (PJW)
ORDER ACCEPTING REPORT AND
ADOPTING FINDINGS, CONCLUSIONS,
AND RECOMMENDATIONS OF UNITED
STATES MAGISTRATE JUDGE, AND
GRANTING CERTIFICATE OF
APPEALABILITY IN PART

15
16

Pursuant to 28 U.S.C. Section 636, the Court has reviewed the

17

Petition, records on file, and the Report and Recommendation of the

18

United States Magistrate Judge.

19

de novo review of those portions of the Report to which Petitioner and

20

Respondent have objected.

21

findings, conclusions, and recommendations of the Magistrate Judge.

22

Further, the Court has engaged in a

The Court accepts the Report and adopts the

Further, for the reasons stated in the Report and

23

Recommendation, the Court finds that, on all his claims but one,

24

Petitioner has not made a substantial showing of the denial of a

25

constitutional right and, therefore, a certificate of appealability is

26

denied.

27

v. Cockrell, 537 U.S. 322, 336 (2003).

28

of appealability with respect to the issue of whether there was

See 28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b); Miller-El

A10

The Court grants a certificate

Case 2:17-cv-03830-JVS-PJW Document 38 Filed 12/04/18 Page 2 of 2 Page ID #:2175

1

sufficient evidence to establish that Petitioner acted with

2

premeditation and deliberation when he shot at Torres.

3
4

DATED: December 4, 2018.

5
6
7

JAMES V. SELNA
UNITED STATES DISTRICT JUDGE

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

C:\Users\isabelmartinez\AppData\Local\Temp\notes95E17C\MJ - Burciaga - Order accep r&r.wpd

2

A11

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 1 of 26 Page ID #:2106

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11
12
13
14

MICHAEL BURCIAGA,

)
)
Petitioner,
)
)
v.
)
)
WARDEN, CENTINELA STATE PRISON, )
)
Respondent.
)
)

CASE NO. CV 17-3830-JVS (PJW)
REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE

15
16

This Report and Recommendation is submitted to the Hon. James V.

17

Selna, United States District Judge, pursuant to 28 U.S.C. § 636 and

18

General Order 05-07 of the United States District Court for the

19

Central District of California.

20

is recommended that the Petition be denied and the action be dismissed

21

with prejudice.

For the reasons discussed below, it

22

I.

23

SUMMARY OF PROCEEDINGS

24

A.

State Court Proceedings

25

In 2014, a jury in Los Angeles County Superior Court found

26

Petitioner guilty of shooting at an occupied motor vehicle, unlawful

27

possession of a firearm by a felon, and two counts of attempted

28

murder.

(Clerk’s Transcript (“CT”) 222-28.)

A12

The jury also found that

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 2 of 26 Page ID #:2107

1

Petitioner discharged a firearm causing great bodily injury and that

2

the offenses were committed for the benefit of a criminal street gang.

3

(CT 223-27.)

4

three prior prison terms and sentenced him to 83 years to life in

5

prison.

6

The trial court determined that Petitioner had served

(CT 278, 303-07.)

Petitioner appealed to the California Court of Appeal, which

7

reversed the gang enhancement as to one of the attempted murder

8

convictions and remanded the case to the trial court to correct

9

sentencing errors, but otherwise affirmed the judgment.

(Lodged

10

Document Nos. 4-7.)

11

Supreme Court, which was summarily denied.

12

9.)

13

Superior Court, the California Court of Appeal, and the California

14

Supreme Court, which were denied.

15

B.

16

Petitioner sought review in the California
(Lodged Document Nos. 8-

He then filed habeas corpus petitions in the Los Angeles County

(Lodged Document Nos. 12-17.)

Federal Court Proceedings
On May 16, 2017, Petitioner, proceeding pro se, filed a petition

17

for writ of habeas corpus in this court, raising three claims for

18

relief.

19

a stay and abeyance to exhaust additional claims in state court,

20

Petitioner filed an Amended Petition (hereinafter “Amended Petition”),

21

raising the following nine grounds for relief:

22

1.

23
24

After being granted

There was insufficient evidence to support a finding of
premeditation.

2.

25
26

(Docket No. 1, hereinafter “Petition.”)

There was insufficient evidence to support the gang
enhancements.

3.

Petitioner’s Sixth Amendment right to counsel was violated

27

when the trial court granted his “ambiguous and equivocal

28

request to represent himself.”
2

A13

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 3 of 26 Page ID #:2108

1

4.

The prosecutor committed misconduct by allowing witnesses to

2

give false testimony, and counsel was ineffective for

3

failing to raise the issue.

4

5.

5
6

Trial counsel was ineffective for allowing the prosecutor to
present false evidence.

6.

Petitioner’s due process rights were violated by the use of

7

an “unduly suggestive identification” procedure, and counsel

8

was ineffective for failing to raise the issue.

9

7.

10
11

The prosecutor committed misconduct by knowingly using false
evidence.

8.

Trial counsel was ineffective for failing to file a motion

12

to obtain impeachment evidence against the law enforcement

13

officers involved in his case.

14

9.

15
16

There was insufficient evidence to convince a “reasonable
jury of his guilt beyond a reasonable doubt.”

(Petition at 15-18; Amended Petition at 3, 9-122.1)

17

II.

18

FACTUAL SUMMARY

19

The following statement of facts was taken verbatim from the

20

California Court of Appeal’s opinion affirming Petitioner’s

21

conviction:

22

The Puente Trece gang had numerous cliques.

The

23

Blackwood clique wanted to separate from the gang to form

24

its own gang, and this caused internal Puente Trece gang turmoil,

25

including several shootings.

26
27
28

1

The page numbers used herein are those inserted by the court’s
electronic filing system, not the hand-written page numbers filled in
by Petitioner.
3

A14

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 4 of 26 Page ID #:2109

1

On May 19, 2013, [Edward] Campbell, an “original”

2

member of the Puente Trece gang and a member of its Perth

3

Street clique, drove a vehicle in La Puente, and picked up

4

Adrian Torres, another member of that gang and a member of

5

the Ballista clique.2

6

ride home, but told Torres that Campbell first had to go to

7

the house of Matthew Burciaga,3 [Petitioner’s] brother, to

8

obtain “some answers” about the death of “Joker,” a Puente

9

Trece gang member who had been shot the night before.

Campbell offered to give Torres a

10

Torres knew there was “bad blood” between Campbell and

11

Matthew.

12

When Campbell and Torres arrived at Matthew’s house,

13

there were three people outside, in front of a garage:

14

[Petitioner], Robert Valdivia,4 and Matthew.

15

and Valdivia were members of the Puente Trece gang.

16

was in a wheelchair; he had been a member of the Puente

17

Trece gang, Perth Street clique, until he was shot when he

18

was about 17 years old.

19

[Petitioner]
Matthew

Before getting out of the vehicle, Campbell handed

20

Torres a gun, which Torres placed in the center console.

21

Campbell then told the men who were in front of the garage,

22

“I’m not armed.

I just--I just need to ask some questions.”

23
24
25

2

At the time of trial, Torres was attempting to “get out” of
the gang.
3

26
27
28

Because Matthew Burciaga and [Petitioner] share the same
surname, we refer to Matthew Burciaga as Matthew. Matthew is
sometimes referred to in the record as “Porky.”
4

Valdivia was also charged in the underlying case, but he is
not a party to this appeal.
4

A15

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 5 of 26 Page ID #:2110

1

Campbell exited the vehicle and walked toward Matthew,

2

Valdivia, and [Petitioner].

3

[Petitioner] approached Campbell; Matthew and Valdivia

4

remained near the garage.

5

“close to” one another and spoke.

6

an argument.

7

saw [Petitioner] shoot Campbell.

8

holding his stomach.

9

the garage.

10

Torres remained in the vehicle.

[Petitioner] and Campbell got
The conversation led to

Then, Torres heard four or five gunshots, and
Campbell backed up,

Matthew and Valdivia were still near

Campbell walked toward the vehicle; he was crouched

11

over and holding his stomach.

12

passenger seat of the vehicle to the driver’s seat.

13

Campbell, whose shirt was bloody, entered the passenger seat

14

of the vehicle and asked Torres to take him to a hospital.

15

While the vehicle was still parked, Torres then heard

16

Valdivia yell, “That’s his nephew.

17

began shooting “at least one shot” at the vehicle.

18

response, Torres used the gun Campbell gave him to fire one

19

shot at [Petitioner]; the gun then “jammed.”

20

off, and while en route to the hospital, Torres put his hand

21

on Campbell’s stomach, trying to hold Campbell’s “guts in.”

22

From photographic lineups, Torres identified [Petitioner] as

23

the person who shot Campbell, and Valdivia as the man who

24

was “behind the shooter.”

25
26

Torres moved from the

Get him.”5

[Petitioner]
In

Torres drove

Los Angeles County Sheriff’s Department Detective
Carlos Gutierrez, the prosecutor’s gang expert, testified

27
28

5

Torres referred to Campbell as his “uncle” even though they
were not actually related.
5

A16

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 6 of 26 Page ID #:2111

1

the Puente Trece gang had approximately 768 members, and was

2

divided into 16 different cliques.

3

activities included drug sales and shootings (drive-by

4

shootings, walk-up shootings, murders, and assaults with

5

deadly weapons).

6

were convicted of assault with a firearm.

7

The gang’s primary

In 2012, two Puente Trece gang members

Detective Gutierrez opined the shootings were for the

8

benefit of and in association with Puente Trece, stating:

9

“[T]he way the gang’s benefitting from [ ] this is that, by

10

having shot at this other individual, a member of their own

11

clique, they are promoting or benefitting the gang’s

12

reputation of being violent.

13

know, within their own clique as well as rival cliques that,

14

hey, if we are willing to kill or attempt to kill our own

15

people, we’re willing to kill anybody.

16

that, with that reputation of being violent comes a cloud of

17

fear.

18

fearful to report this to police, because if they are

19

willing to kill their own gang members, they’re willing to

20

kill other people.”

21

They are letting everybody

[¶]

In addition to

People within the neighborhood are going to be

(Lodged Document No. 7 at 3-5.)

22

III.

23

STANDARD OF REVIEW

24

The standard of review in this case is set forth in 28 U.S.C.

25

§ 2254:

26

An application for a writ of habeas corpus on behalf of a

27

person in custody pursuant to the judgment of a State court

28

shall not be granted with respect to any claim that was
6

A17

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 7 of 26 Page ID #:2112

1

adjudicated on the merits in State court proceedings unless

2

the adjudication of the claim--

3

(1)

resulted in a decision that was contrary to, or

4

involved an unreasonable application of, clearly established

5

Federal law, as determined by the Supreme Court of the

6

United States; or

7

(2)

resulted in a decision that was based on an

8

unreasonable determination of the facts in light of the

9

evidence presented in the State court proceeding.

10
11

28 U.S.C. § 2254(d).
A state court decision is “contrary to” clearly established

12

federal law if it applies a rule that contradicts Supreme Court case

13

law or if it reaches a conclusion different from the Supreme Court’s

14

in a case that involves facts that are materially indistinguishable.

15

Bell v. Cone, 535 U.S. 685, 694 (2002).

16

court unreasonably applied federal law, a petitioner must show that

17

the state court’s application of Supreme Court precedent to the facts

18

of his case was not only incorrect but objectively unreasonable.

19

Renico v. Lett, 559 U.S. 766, 773 (2010).

20

Supreme Court has squarely decided an issue, a state court’s

21

adjudication of that issue cannot result in a decision that is

22

contrary to, or involves an unreasonable application of, clearly

23

established Supreme Court precedent.

24

U.S. 86, 101 (2011).

25

To establish that the state

Where no decision of the

See Harrington v. Richter, 562

Petitioner raised the claims in Grounds One, Two, and Three in

26

his direct appeal in the appellate court and in his petition for

27

review in the California Supreme Court.

28

The supreme court did not explain why it was denying the claims; the
7

A18

(Lodged Document Nos. 6, 8.)

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 8 of 26 Page ID #:2113

1

appellate court did.

2

presumes that the supreme court denied these claims for the same

3

reasons the appellate court did.

4

1194 (2018).

5

reasoning and will not disturb it unless it concludes that “fairminded

6

jurists” would all agree that the decision was wrong.

7

U.S. at 102; Johnson v. Williams, 568 U.S. 289, 297 n.1 (2013)

8

(approving reviewing court’s “look through” of state supreme court’s

9

silent denial to last reasoned state-court decision).

10

(Lodged Document Nos. 7, 9.)

This Court

Wilson v. Sellers, 138 S. Ct. 1188,

As such, the Court looks to the appellate court’s

Richter, 562

Petitioner first raised his remaining claims in his state habeas

11

petition in the California Supreme Court, which did not explain its

12

reasons for denying them.

13

situation, the Court will review the entire record to determine

14

whether there was any reasonable basis for denying relief.

15

562 U.S. at 98; see also Hein v. Sullivan, 601 F.3d 897, 905 (9th Cir.

16

2010).

(Lodged Document Nos. 9-10.)

17

IV.

18

DISCUSSION

19

A.

20

In this

Richter,

Insufficient Evidence
In Grounds One and Two, Petitioner claims that there was

21

insufficient evidence to prove that he acted with premeditation when

22

he shot Campbell and tried to shoot Torres.

23

also contends that there was not enough evidence to prove that he had

24

the specific intent to benefit his gang when he did.

25

14.)

26

to “link him to the crime.”

27

reasons explained below, these claims are denied.

(Petition at 14.)

He

(Petition at

In Ground Nine, he contends that the evidence was insufficient
(Amended Petition at 114-15.)

28
8

A19

For the

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 9 of 26 Page ID #:2114

1

As the United States Supreme Court made clear in Jackson v.

2

Virginia, 443 U.S. 307, 324 (1979), federal habeas corpus relief is

3

not available for a claim of insufficient evidence unless a petitioner

4

can show that, considering the trial record in a light most favorable

5

to the prosecution, “no rational trier of fact could have found proof

6

of guilt beyond a reasonable doubt.”

7

Court presumes that the jury resolved any conflicting inferences in

8

favor of the prosecution.

9

(1992).

In evaluating such claims, the

Wright v. West, 505 U.S. 277, 296–97

The Court reviews the state court’s decision “with an

10

additional layer of deference,” granting relief only when the state

11

court’s judgment was contrary to or an unreasonable application of

12

Jackson.

13

Juan H. v. Allen, 408 F.3d 1262, 1274–75 (9th Cir. 2005).

In evaluating an insufficiency claim, the Court looks to state

14

law to determine what evidence is necessary to convict.

15

U.S. at 324.

16

be established by: (1) planning activity; (2) motive; and (3) the

17

manner of killing.

18

Jackson, 443

Under California law, premeditation and deliberation can

People v. Anderson, 70 Cal.2d 15, 26-27 (1968).

The gist of Petitioner’s argument is that his encounter with

19

Campbell was unexpected and brief and that the shooting bore the

20

trademark of an impulsive act of rage following an argument, not

21

deliberation.

22

to reflect on what he was doing before the shooting to rise to the

23

level to premeditation and deliberation.

24
25
26

He argues that there was just not enough time for him

This argument was rejected by the state appellate court, which
found premeditation based on planning, motive, and manner:
Relevant to planning, [Petitioner], while in possession

27

of a gun, approached Campbell, an original member of the

28

Puente Trece gang.

After an argument ensued between the two
9

A20

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 10 of 26 Page ID #:2115

1

of them, [Petitioner] shot at Campbell.

2

inference that [Petitioner] planned to attack Campbell if

3

their “exchange” did not progress in a manner [Petitioner]

4

considered satisfactory.

5

This supports an

There was evidence [Petitioner] had a motive--here, a

6

gang related motive--for attempting to kill Campbell and

7

Torres.

8

over the effort of the Blackwood clique to separate from the

9

Puente Trece gang.

There was a dispute within the Puente Trece gang

This caused violent shootings.

The jury

10

could reasonably infer this dispute within the gang resulted

11

in the death of one of its gang members the day before the

12

incident, and it appears Campbell believed Matthew had some

13

“answers” as to how that happened.

14

opined, the shootings benefitted the gang by promoting the

15

gang’s reputation for violence and discouraging people in

16

the neighborhood from reporting crimes, particularly since

17

the message here is the gang members are willing to kill

18

their fellow gang members.

19

As Detective Gutierrez

Regarding the manner of the shootings . . . Campbell

20

visibly disarmed himself, and he said aloud to [Petitioner],

21

“I’m not armed.

22

[Petitioner] therefore knew Campbell was not a threat.

23

I just--I just need to ask some questions.”

Campbell was standing very close to [Petitioner] when

24

the two began to argue.

[Petitioner] fired four or five

25

shots at Campbell at point blank range.

26

perforated Campbell’s stomach, resulting in his “guts”

27

falling out.

The shots

The jury could reasonably infer [Petitioner’s]

28
10

A21

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 11 of 26 Page ID #:2116

1

manner of shooting Campbell demonstrated a deliberate plan to

2

kill him.

3

. . .

4

This evidence of planning, motive, and manner of attempting

5

to kill supports an inference the attempted murders were the

6

result of reflection.

7

(Lodged Document No. 7 at 6-8 (internal footnotes and citations

8

omitted).)

9

To prevail on his insufficiency claim, Petitioner would have to

10

convince the Court that no rational trier of fact could have concluded

11

based on this evidence that he acted with premeditation and

12

deliberation when he shot Campbell and that the appellate court’s

13

finding upholding the verdict was contrary to or an unreasonable

14

application of Jackson.

15

at 1274–75.

16

rational jury could have concluded that, at some point during

17

Petitioner’s encounter with Campbell, Petitioner formulated the intent

18

to shoot and kill Campbell.

19

arguing that, as a matter of California law, the circumstances of the

20

shooting could not support a finding of premeditation, the state

21

appellate court made clear that that argument is without merit.

22

finding is binding on this Court.

23

74, 76 (2005).

24

Jackson, 443 U.S. at 324; Juan H., 408 F.3d

Petitioner has not come remotely close to doing so.

A

And, to the extent that Petitioner is

That

See Bradshaw v. Richey, 546 U.S.

As to the jury’s finding that Petitioner acted with premeditation

25

and deliberation when he shot at Torres, this is a much closer call.

26

The record is murky, at best, when it comes to Petitioner’s thought

27

process with regard to shooting Torres.

28

Petitioner first realized that Torres was in the truck that Campbell
11

A22

It is not clear when

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 12 of 26 Page ID #:2117

1

drove to the scene.

2

told Petitioner, “That’s his nephew, get him.”

3

why Petitioner shot at Torres.

4

any number of reasons, including because Torres was a witness to

5

Campbell’s shooting, because Torres was related to Campbell, because

6

Torres was a gang member, or because Valdivia told Petitioner to shoot

7

him.

8

Certainly, it was not later than when Valdivia
It is also not clear

Based on the record, it could be for

The record does not definitively establish the motive.
There is no question about when Petitioner shot at Torres.

It

9

was immediately after Valdivia told him to do so, not leaving much

10

time, it seems, for premeditation or deliberation, assuming it was

11

Valdivia’s coaxing that caused Petitioner to shoot at Torres.

12

The state appellate court upheld the jury’s finding that

13

Petitioner acted with premeditation on the ground that Petitioner had

14

a motive to shoot Torres because Torres was a gang member and because,

15

when it comes to gang shootings, premeditation can be established even

16

though the period between the sighting and the shooting is very brief.

17

(Lodged Document No. 7 at 6-8.)

18

that it is not clear from the evidence that Petitioner knew that

19

Torres was a gang member when he shot at him.

20

trial that Torres was a gang member, it was not clear whether

21

Petitioner knew that on the day of the shooting.

22

that he did not know Petitioner and had never seen him before the day

23

of the shooting.

24

18 or 19 when Petitioner shot at him and Petitioner was in his 30s.

25

The gang expert testified that there were 768 members of the Puente

26

gang at the time and that not all of them knew each other.

27

And, though Torres had the word “Puente” tattooed on his forehead when

The problem with this analysis is

Though it was clear at

Torres testified

(Reporter’s Transcript (“RT”) 1066-67.)

28
12

A23

Torres was

(RT 1249.)

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 13 of 26 Page ID #:2118

1

he testified at trial, he was not sure whether he had gotten the

2

tattoo before or after Petitioner shot at him.

(RT 1074.)

3

Nevertheless, reviewing this record in a light most favorable to

4

the prosecution and with deference to the state court’s findings, the

5

Court concludes that Petitioner is not entitled to relief on this

6

claim.

7

could have found that Torres had the Puente tattoo on his face at the

8

time of the shooting and that, when Campbell made a display of handing

9

the gun to Torres so that Petitioner would know that Campbell was not

In reaching this conclusion, the Court concludes that the jury

10

armed when he approached, Petitioner discovered that Torres was a

11

Puente gang member and was in the truck.

12

reasonable for the jury to conclude that Petitioner acted with

13

premeditation and deliberation when he shot at Torres after shooting

14

Campbell.

15

Under this scenario, it was

The jury found that Petitioner’s attempt to murder Torres was

16

committed in association with other gang members.

Petitioner argues

17

that there was not enough evidence to support this finding because

18

there was no proof that his attempt to kill Torres was to benefit the

19

gang.

20

the specific intent to benefit the gang, rather, it only had to prove

21

that Petitioner intended to commit the offenses in association with

22

other gang members.

23

1198 (2003) (holding “specific intent to benefit the gang is not

24

required,” but rather “specific intent to promote, further, or assist

25

in any criminal conduct by gang members” (internal quotation marks

26

omitted)).

The prosecution was not required to prove that Petitioner had

See People v. Morales, 112 Cal. App.4th 1176,

There was more than enough evidence that Petitioner shot

27
28
13

A24

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 14 of 26 Page ID #:2119

1

at Torres in association with Valdivia.

For these reasons,

2

Petitioner’s claim in Ground Two is also denied.6

3

As for Petitioner’s claim in Ground Nine that there was not

4

enough evidence to “link him to the crime,” this argument is rejected

5

also.

6

and testified at trial that Petitioner shot Campbell and then shot at

7

him.

8

to support the convictions.

9

938, 940 (9th Cir. 1981).

Torres identified Petitioner as the shooter after the shooting

(RT 985, 1007-08, 1219-20.)

That was more than enough evidence

See United States v. Larios, 640 F.2d

But there was more.

Torres’s testimony was

10

corroborated in part by the fact that Petitioner’s fingerprint was

11

found on a beer can that he left behind and in part by Petitioner’s

12

father’s statement to police that Petitioner was outside the house

13

when the shooting occurred.

14

argument that there was not enough evidence to convict him is without

15

merit.

16

B.

17

(RT 928, 938-50, 1213-16.)

Petitioner’s

Violation of Right to Counsel
In Ground Three, Petitioner claims that his Sixth Amendment right

18

to counsel was violated when the trial court granted his “ambiguous

19

and equivocal request to represent himself” at sentencing.

20

Docket No. 1 at 15.)

21

court requesting “new counsel” made his subsequent oral request to

22

represent himself “ambiguous” and, thereby, rendered the waiver of his

23

right to counsel invalid.

24

rejected.

(Petition,

He argues that his post-conviction letter to the

(Traverse at 17-18.)

This claim is

25
26
27
28

6

To the extent that Petitioner is challenging the gang
enhancement for the attempted murder of Campbell, that claim is moot
because the appellate court reversed that finding. (Lodged Document
No. 7 at 9, 17.)
14

A25

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 15 of 26 Page ID #:2120

1

Under the Sixth Amendment, a criminal defendant has a right to

2

represent himself, Faretta v. California, 422 U.S. 806, 819 (1975);

3

see also Lopez v. Thompson, 202 F.3d 1110, 1117 (9th Cir. 2000)

4

(noting right extends to sentencing, too), provided he makes an

5

unequivocal request to do so.

6

882 (9th Cir. 2007).

7

See Stenson v. Lambert, 504 F.3d 873,

Approximately two months after he was convicted at trial,

8

Petitioner sent a letter to the court, complaining about his trial and

9

blaming his attorney for not proving his innocence.

10

No. 3, Attachment B.)

11

appointed lawyer.

12

did not read the letter when it was received.

13

(Lodged Document

He asked for a retrial with a new court

(Lodged Document No. 3, Attachment B.)

The court

On the date set for sentencing, Petitioner’s attorney told the

14

court that Petitioner wanted the court to read the letter and that

15

Petitioner was requesting “pro per status” from “this point on.”

16

1802.)

17

court indicated that it had not read the letter because it was “an

18

improper . . . ex parte communication” with the court.

19

Before reading the letter, the court asked Petitioner if he was

20

“absolutely certain” that he wished to represent himself at sentencing

21

and at a trial on his prior convictions.

22

confirmed that he was.

23

Petitioner that to do so he would be giving up his constitutional

24

right to counsel and that he would not receive the “court’s help” or

25

“attorney help” at any subsequent hearings or at sentencing.

26

1803-04.)

27

do.

Petitioner confirmed that that was correct.

(RT 1803.)

(RT 1803.)

(RT 1802.)

(RT
The

(RT 1802-03.)

Petitioner

The trial court then informed

(RT

Petitioner again affirmed that that was what he wanted to

(RT 1804.)

28
15

A26

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 16 of 26 Page ID #:2121

1

Thereafter, Petitioner completed and signed a waiver form, giving

2

up his right to counsel and electing to proceed on his own.

3

52.)

4

waiver form and that he was “giving up” his right to an attorney “in

5

order to represent [him]self as [his] own lawyer.”

6

court again questioned Petitioner regarding the rights he was waiving

7

and, when it was satisfied that Petitioner knew what he was doing,

8

granted his request to represent himself.

9

(CT 249-

He later acknowledged that he had initialed and signed the

(RT 1805.)

The

(RT 1805-06.)

The court then proceeded to hold a court trial on Petitioner’s

10

prior convictions with Petitioner representing himself.

11

After the evidence was presented, the court found true the allegations

12

that Petitioner had suffered three prior felony convictions.

13

1820; CT 278.)

14

(RT 1810-21.)

(RT

Only then did the court read Petitioner’s earlier letter to the

15

court.

16

the record, the court said it was concerned that Petitioner requested

17

that he be appointed an attorney after having just been relieved of

18

representation.

19

could not get a new court-appointed attorney after asking to have the

20

last court-appointed attorney removed.

21

the court that he understood that he was now proceeding pro se and

22

wanted time to file a motion for a new trial.

23

court then appointed Petitioner standby counsel “in the event the need

24

arises.”

25

filed motions and proceeded to sentencing without ever requesting the

26

assistance of counsel.

27
28

(RT 1822.)

After summarizing the contents of the letter on

(RT 1822-23.)

(RT 1826-27.)

The court informed Petitioner that he

(RT 1823.)

Petitioner told

(RT 1823-25.)

The

Thereafter, Petitioner representing himself,

(RT 2101-04, 2401-23.)

On appeal, Petitioner claimed that the trial court erred in
allowing him to represent himself.

In denying the claim, the
16

A27

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 17 of 26 Page ID #:2122

1

California Court of Appeal concluded that the trial court had not

2

erred because Petitioner’s request to represent himself was not

3

unequivocal:

4

[Petitioner’s] request for self-representation was

5

unequivocal.

At the January 8, 2015, hearing, [Petitioner]

6

was present and, after he and his counsel conferred off the

7

record, [Petitioner], through his counsel, requested to

8

represent himself.

9

directly with [Petitioner].

The trial court confirmed the request
Thereafter, the trial court

10

inquired of [Petitioner] whether he was “absolutely

11

certain[”] that he wanted to represent himself, and

12

[Petitioner] said, “Yes.

13

Your Honor.”

14

I wish to do that at this time,

The trial court, in making “certain” [Petitioner]

15

understood what he was “getting [himself] into,” explained

16

the “pitfalls” of representing himself because he would not

17

have “assistance by anyone”; he was “on [his] own” and would

18

not have the assistance of an attorney.

19

additional information,” the trial court asked [Petitioner]

20

whether it was still his “desire to go forward and represent

21

yourself[?]”

22

“With that

[Petitioner] replied, “Yes, Your Honor.”

The trial court stated, in [Petitioner’s] presence, it

23

recessed the matter “to allow [Petitioner] to complete a

24

Faretta waiver advisement, waiver of right to counsel in

25

order for the court to entertain his motion for pro per

26

status and to represent himself from this point on . . . .”

27

[Petitioner] initialed and signed the waiver of rights

28
17

A28

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 18 of 26 Page ID #:2123

1

form.7

2

the rights that [were] mentioned on [the] document,” and was

3

“waiving and giving up those rights in order to represent

4

[himself] as [his] own lawyer.”

5

He confirmed he reviewed the document, “understood

The trial court reiterated for [Petitioner] that “[t]he

6

consequences” of his waiving his rights specified in the

7

document was he would “receive absolutely no attorney

8

assistance in this matter pertaining to the rules of law,

9

rules of procedure that you’ll be required to know and

10

follow in order to represent yourself from this point on.”

11

In response to the trial court’s inquiry, [Petitioner] again

12

said that he “underst[ood] that.”

13

confirmed, “Having all those consequences in mind, it [was]

14

still [his] desire to waive [his] constitutional right to have

15

counsel represent [him] free of charge.”

16

[Petitioner] also

Once the trial court read [Petitioner’s] letter, the

17

trial court noted the letter contained a request for

18

state-appointed counsel and asked [Petitioner] if, despite

19

the letter, he understood he was now on his own.

20

[Petitioner] said he understood he was on his own, made no

21

objection to proceeding on his own, and made no request for

22
23
24
25
26
27
28

7

The waiver of rights form is included in the record on appeal
and we have reviewed it. It is three pages long and divided into five
somewhat self-explanatory sections--constitutional rights, personal
information, dangers and disadvantages of self-representation, charges
and consequences, and court’s advice and recommendation. The form
lists 28 advisements and instructs [Petitioner] to initial the box
after each advisement only if he “understand[s] and agree[s] with it.”
At the end of the form, above his signature, is the following: “I
hereby certify that I have read, understood and considered all of the
above warnings included in this petition and I still want to act as my
own attorney. I freely and voluntarily give up my right to have a
professional attorney represent me.”
18

A29

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 19 of 26 Page ID #:2124

1

substitute counsel.

2

counsel” in the event [Petitioner] changed his mind and

3

choose to exercise his right to have counsel, but there is

4

no indication in the record [Petitioner] ever changed his

5

mind and requested the appointment of counsel.

6

continued to represent himself in two subsequent hearings,

7

and the record does not show, at any time after the trial

8

court granted [Petitioner’s] request to represent himself,

9

he requested the appointment of counsel.

10

The trial court appointed “standby

[Petitioner]

The only request regarding representation [Petitioner]

11

made in open court was for self-representation.

12

the trial court read [Petitioner’s] letter, which it had

13

received about one month before, [Petitioner] said he

14

understood he was “on [his] own[”], and did not request the

15

appointment of new counsel.

16

appointed “standby counsel” in the event [Petitioner]

17

changed his mind and choose to exercise his right to have

18

counsel, the trial court was prepared to appoint standby

19

counsel as [Petitioner’s] counsel.

20

[Petitioner] never changed his mind.

21
22

Even after

Indeed, because the trial court

That never occurred;

(Lodged Document No. 7 at 14-15.)
The Court agrees with the appellate court that Petitioner’s

23

request to represent himself was unequivocal.

24

now claims that his letter seeking new counsel called into question

25

the firmness of his position, any ambiguity was resolved by the trial

26
27
28
19

A30

To the extent that he

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 20 of 26 Page ID #:2125

1

court when it questioned Petitioner about the letter and Petitioner

2

persisted in representing himself.8

3

C.

4

Unduly Suggestive Identification Procedures
In Ground Six, Petitioner contends that his due process rights

5

were violated by the use of an unduly suggestive identification

6

procedure.

7

(Petition, Docket No. 16 at 91.)

This claim is denied.

The United States Supreme Court has held that evidence derived

8

from a pre-trial identification procedure may be inadmissible on due

9

process grounds if the challenged procedure was so “impermissibly

10

suggestive as to give rise to a very substantial likelihood of

11

irreparable misidentification.”

12

377, 384 (1968).

13

photographic lineup “is in some way emphasized.”

14

Simmons v. United States, 390 U.S.

This can occur if an individual’s photograph in a
Id. at 383.

Petitioner believes that the detectives circled his photograph in

15

the photographic lineup before showing it to Torres and then

16

instructed him to circle Petitioner’s photo.

17

at 91.)

Petitioner, however, offers no evidence to support this

18

claim.

He points only to the fact that his photograph was circled

19

multiple times.

20

completely speculative and, as such, cannot support a claim for habeas

21

relief.

22

Yu v. Cate, 2010 WL 517904, at *9 (C.D. Cal. Feb. 9, 2010) (rejecting

23

claim that photographic lineup was unduly suggestive where there was

24

“no evidence in the record that, in presenting the photographic lineup

(Petition, Docket No. 16

(Petition, Docket No. 16 at 99.)

This claim is

See James v. Borg, 24 F.3d 20, 26 (9th Cir. 1994); see also

25
8

26
27
28

The letter Petitioner submitted to the trial court was lost
prior to his state court appeal. (See Lodged Document No. 3.) It was
recreated on appeal by the Petitioner, his attorney, and the trial
court “to the satisfaction of all parties.” (Lodged Document No. 3.)
The reproduced letter served as the basis of this claim in state
court.
20

A31

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 21 of 26 Page ID #:2126

1

to [the witness], the police said or did anything to call [the

2

witness’s] attention to petitioner’s photograph”).

3

Petitioner’s conclusory claim in Ground Six fails to merit relief.9

4

D.

5

Accordingly,

Prosecutorial Misconduct for the Presentation of False Evidence
In Grounds Four and Seven, Petitioner claims that the prosecutor

6

committed misconduct by knowingly presenting false evidence.

7

(Petition, Docket No. 16 at 9-67 and 100-07.)

8

these claims.

9

There is no merit to

A conviction obtained by the knowing use of false evidence or

10

perjured testimony is fundamentally unfair and violates a defendant’s

11

constitutional rights.

12

(1976); see also Napue v. Illinois, 360 U.S. 264, 269–70 (1959) (“A

13

lie is a lie, no matter what its subject, and, if it is in any way

14

relevant to the case, the district attorney has the responsibility and

15

duty to correct what he knows to be false and elicit the truth.”

16

(internal quotation marks omitted)).

17

petitioner must show that the testimony was actually false, that the

18

prosecutor knew or should have known that it was false, and that the

19

falsehood was material to the case.

20

1071–72 (9th Cir. 2008).

21

any reasonable likelihood that the false testimony could have affected

22

the jury’s decision.

23

2009).

24
25

United States v. Agurs, 427 U.S. 97, 103

To merit habeas relief, a

Jackson v. Brown, 513 F.3d 1057,

A Napue violation is material if there is

Libberton v. Ryan, 583 F.3d 1147, 1164 (9th Cir.

Petitioner contends that Torres gave a “false and misleading
version of events” at trial, as evidenced by the many inconsistencies

26
27
28

9

Petitioner faults counsel for failing to “discover and move to
exclude the identification prior to trial.” (Petition, Docket No. 16
at 91.) This claim–-and all of Petitioner’s claims of ineffective
assistance of counsel--are addressed in Section IV(E) below.
21

A32

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 22 of 26 Page ID #:2127

1

between his testimony at the preliminary hearing and at trial.

2

(Petition, Docket No. 16 at 9.)

3

testified that there were four people at the scene at the preliminary

4

hearing, but stated there were only two at trial.

5

No. 16 at 11-12.)

6

Petitioner’s photograph in the photo lineup after denying that he did

7

so in the preliminary hearing.

8

Petitioner also cites other instances when Torres was unable to

9

remember events at trial that he testified to at the preliminary

He notes, for example, that Torres

(Petition, Docket

Torres also admitted at trial that he circled

(Petition, Docket No. 16 at 38.)

10

hearing.

11

complains that there were other times at trial where Torres’s

12

testimony was more detailed than his testimony at the preliminary

13

hearing.

14

(See, e.g., Petition, Docket No. 16 at 13.)

He also

(See, e.g., Petition, Docket No. 16 at 22, 30, 34.)

Inconsistent statements by a witness, however, do not establish

15

that a witness’s testimony was false.

16

F.3d 1109, 1119 (9th Cir. 1997) (“The fact that a witness may have

17

made an earlier inconsistent statement, or that other witnesses have

18

conflicting recollections of events, does not establish that the

19

testimony offered at trial was false.”).

20

purposes of argument that Torres was being untruthful, Petitioner has

21

not presented evidence that the prosecutor knew this.

22

v. Woodford, 255 F.3d 926, 959 (9th Cir. 2001) (rejecting

23

prosecutorial misconduct claim because, even assuming testimony was

24

false, petitioner presented no evidence the prosecution knew it was

25

false); see also See United States v. Zuno–Arce, 44 F.3d 1420, 1423

26

(9th Cir. 1995) (noting “[l]awyers in criminal cases, for prosecution

27

and defense, sometimes swim in a sea of lies, and must necessarily

28
22

A33

See United States v. Croft, 124

Moreover, even assuming for

See Murtishaw

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 23 of 26 Page ID #:2128

1

trust the jury to determine what is true, or whether reasonable doubt

2

remains about what is true”).

3

Petitioner further contends that the prosecutor introduced a

4

bullet casing that must have been planted by police at the scene

5

because it looked very old.

6

at the scene with his fingerprints on it must have been tampered with.

7

(Petition, Docket No. 16 at 100-02.)

8

however, are unsupported by any evidence.

9

habeas relief.

He also complains that the beer can found

These conclusory claims,
As such, they do not merit

See Jones v. Gomez, 66 F.3d 199, 204–05 (9th Cir.

10

1995) (holding conclusory allegations do not warrant habeas relief);

11

see also Wood v. Bartholomew, 516 U.S. 1, 8 (1995) (per curiam)

12

(noting courts cannot grant habeas corpus relief “on the basis of

13

little more than speculation”).

14

E.

15

Ineffective Assistance of Counsel
In Grounds Five and Eight, Petitioner claims that trial counsel

16

was ineffective for allowing the prosecutor to present false evidence

17

and for failing to file a Pitchess motion to obtain impeachment

18

evidence against the law enforcement officers involved in his case.10

19

(Petition, Docket No. 16 at 68-90 and 108-13.)

20

without merit.

21

These claims are

The Sixth Amendment right to counsel guarantees not only

22

assistance, but effective assistance, of counsel.

23

Washington, 466 U.S. 668 (1984).

24

ineffective assistance of counsel, Petitioner must establish that

See Strickland v.

In order to prevail on a claim of

25
26
27
28

10

Pitchess v. Superior Court, 11 Cal.3d 531, 537–39 (1974),
requires the government to disclose evidence of police misconduct,
including prior allegations of excessive force and dishonesty, upon a
sufficient showing that the discovery of the information is needed for
a fair trial.
23

A34

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 24 of 26 Page ID #:2129

1

counsel’s performance fell below an “objective standard of

2

reasonableness” under prevailing professional norms and that there is

3

a reasonable probability that, but for counsel’s performance, he would

4

not have been convicted.

5

assistance must be rejected upon finding either that counsel’s

6

performance was reasonable or that the alleged error was not

7

prejudicial.

8
9

Id. at 687–88, 694.

A claim of ineffective

Id. at 697.

Petitioner asserts that counsel allowed the prosecutor to present
false evidence against him--namely, a beer can with Petitioner’s

10

fingerprint on it and a bullet casing that had been tampered with by

11

police.

12

police tampered with the evidence is wholly speculative and without

13

evidentiary support.

14

tampered with the evidence, trial counsel had no basis for objecting.

15

As such, his failure to do so was not ineffective.

16

F.3d at 1273 (“[T]rial counsel cannot have been ineffective for

17

failing to raise a meritless objection.”); Rupe v. Wood, 93 F.3d 1434,

18

1445 (9th Cir. 1996) (holding counsel’s “failure to take a futile

19

action can never be deficient performance”).

20

As discussed previously, however, Petitioner’s claim that the

Absent any suggestion that the police had

See Juan H., 408

As for Petitioner’s claim that trial counsel was ineffective for

21

failing to file a Pitchess motion and obtain the officers’ files,

22

Petitioner has not identified any useful evidence that was in the

23

personnel files.

24

enough.

25

2006).

26

Mere speculation that there might have been is not

See Osumi v. Giurbino, 445 F. Supp.2d 1152, 1163 (C.D. Cal.

Petitioner contends that trial counsel was ineffective for

27

failing to challenge the photographic lineup shown to Torres and to

28

move to exclude Torres’s identification of him based on the photos.
24

A35

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 25 of 26 Page ID #:2130

1

(Petition, Docket No. 16 at 91, 96-97.)

2

determined that Petitioner failed to demonstrate any valid reason to

3

do so.

4

Petitioner’s claim here.

5

that appellate counsel was ineffective for not raising the same issue

6

on appeal fails for the same reason.

7

832, 840 (9th Cir. 2001) (“[A]ppellate counsel’s failure to raise

8

issues on direct appeal does not constitute ineffective assistance

9

when appeal would not have provided grounds for reversal.”).

10

Again, the Court has already

Counsel’s failure to make a meritless motion cannot support
James, 24 F.3d at 27.

Petitioner’s claim

See Wildman v. Johnson, 261 F.3d

Finally, Petitioner’s unsupported and unpersuasive claims that

11

counsel was ineffective because he failed to: (1) subpoena Campbell to

12

testify at trial; (2) conduct an adequate pre-trial investigation; and

13

(3) adequately cross-examine a “key witness,” (Petition, Docket No. 16

14

at 64, 112), are also denied.

Jones, 66 F.3d at 205.

15

V.

16

RECOMMENDATION

17

For these reasons, IT IS RECOMMENDED that the Court issue an

18

Order (1) accepting this Report and Recommendation and (2) directing

19
20
21
22
23
24
25
26
27
28
25

A36

Case 2:17-cv-03830-JVS-PJW Document 32 Filed 10/12/18 Page 26 of 26 Page ID #:2131

1

that Judgment be entered denying the Petition and dismissing the case

2

with prejudice.11

3

DATED: October 12, 2018.

4
PATRICK J. WALSH
UNITED STATES MAGISTRATE JUDGE

5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22

S:\PJW\Cases-State Habeas\BURCIAGA, M 3830\R&R.wpd

23
24
11

25
26
27
28

The Court is inclined to issue a certificate of appealability
on the issue of whether there was sufficient evidence to establish
that Petitioner acted with premeditation and deliberation when he shot
at Torres. See Rule 11, Federal Rules Governing Section 2254 Cases
(“The district court must issue or deny a certificate of appealability
when it enters a final order adverse to the applicant.”). The parties
should set forth in their objections whether they believe a certificate should issue for this claim or any others.
26

A37

Case 2:17-cv-03830-JVS-PJW Document 22-17 Filed 11/21/17 Page 1 of 1 Page ID
......
#:1512

Court of Appeal, Second Appellate District, Division Five - No. B263 51 7
S234483

IN THE SUPREME COURT OF CALIFORNIA
En Banc
THE PEOPLE, Plaintiff and Respondent,
V.

MICHAEL BURCIAGA, Defendant and Appellant.

The petition for review is denied.
SUPREME COURT
Corrigan, J., was absent and did not participate.

FILED
JUN 1 5 2016
Frank A. McGuire Clerk
Deputy

CANTIL-SAKAUYE

Chief Justice

A38

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 1 of 17 Page ID
#:1444

Filed: 4/7/16

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

COURT OF APPEAL – SECOND DIST.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE

THE PEOPLE,
Plaintiff and Respondent,

Apr 07, 2016
JOSEPH A. LANE, Clerk

 dlee

B263517
(Los Angeles County
Super. Ct. No. KA105904)

v.
MICHAEL BURCIAGA,
Defendant and Appellant.

APPEAL from a judgment of the Superior Court of the County of Los Angeles,
Mike Camacho, Jr., Judge. Affirmed in part, reversed in part, modified, and remanded.
Christopher Nalls, under appointment by the Court of Appeal, for Defendant and
Appellant.
Kamala D. Harris, Attorney General, Gerald A. Engler, Chief Assistant Attorney
General, Lance E. Winters, Senior Assistant Attorney General, Scott A. Taryle,
Supervising Deputy Attorney General, David A. Wildman, Deputy Attorney General, for
Plaintiff and Respondent.

A39

Deputy Clerk

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 2 of 17 Page ID
#:1445

Following a jury trial, defendant and appellant Michael Burciaga was convicted of
two counts of premeditated attempted murder (Pen. Code, §§ 664, 187, subd. (a); 1 counts
1 & 2), shooting at an occupied vehicle (§ 246; count 3), and possession of a firearm by a
felon (§ 29800, subd. (a)(1); count 4). The jury also found defendant intentionally
discharged a firearm in the commission of the offenses charged in counts 1 through 3,
and that those offenses were committed for the benefit of a criminal street gang in
violation of section 186.22, subdivision (b). It was further determined that defendant had
three prior convictions within the meaning of section 667.5, subdivision (b). Defendant
was sentenced to consecutive 40-year-to-life terms on counts 1 and 2, plus one year for
each prior conviction. The trial court stayed imposition of sentence on counts 3 and 4
pursuant to section 654.
Defendant contends there was insufficient evidence (a) the attempted murders
were premeditated, and (b) he had the required intent, i.e., to benefit criminal conduct by
gang members, necessary for the gang enhancement. He also maintains the trial court
should have denied his request to represent himself because it was “ambiguous and
equivocal;” and the court separately erred by shorting him two days of presentence
custody credit.
We reverse the portion of the judgment concerning the gang enhancement on the
conviction for attempted murder of Edward Campbell (count 1). We also accept the
Attorney General’s concession that defendant is entitled to two additional days of
presentence custody credit and remand the case for the court to modify the judgment to
reflect those additional days. In all other respects, the judgment is affirmed.

1

All statutory references are to the Penal Code.
2
A40

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 3 of 17 Page ID
#:1446

FACTS
The Puente Trece gang had numerous cliques. The Blackwood clique wanted to
separate from the gang to form its own gang, and this caused internal Puente Trece gang
turmoil, including several shootings.
On May 19, 2013, Campbell, an “original” member of the Puente Trece gang and
a member of its Perth Street clique, drove a vehicle in La Puente, and picked up Adrian
Torres, another member of that gang and a member of the Ballista clique. 2 Campbell
offered to give Torres a ride home, but told Torres that Campbell first had to go to the
house of Matthew Burciaga, 3 defendant’s brother, to obtain “some answers” about the
death of “Joker,” a Puente Trece gang member who had been shot the night before.
Torres knew there was “bad blood” between Campbell and Matthew.
When Campbell and Torres arrived at Matthew’s house, there were three people
outside, in front of a garage: defendant, Robert Valdivia, 4 and Matthew. Defendant and
Valdivia were members of the Puente Trece gang. Matthew was in a wheelchair; he had
been a member of the Puente Trece gang, Perth Street clique, until he was shot when he
was about 17 years old.
Before getting out of the vehicle, Campbell handed Torres a gun, which Torres
placed in the center console. Campbell then told the men who were in front of the
garage, “I’m not armed. I just—I just need to ask some questions.”
Campbell exited the vehicle and walked toward Matthew, Valdivia, and defendant.
Torres remained in the vehicle. Defendant approached Campbell; Matthew and Valdivia
remained near the garage. Defendant and Campbell got “close to” one another and
2

At the time of trial, Torres was attempting to “get out” of the gang.

3

Because Matthew Burciaga and defendant share the same surname, we refer to
Matthew Burciaga as Matthew. Matthew is sometimes referred to in the record as
“Porky.”
4

Valdivia was also charged in the underlying case, but he is not a party to this
appeal.
3
A41

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 4 of 17 Page ID
#:1447

spoke. The conversation led to an argument. Then, Torres heard four or five gunshots,
and saw defendant shoot Campbell. Campbell backed up, holding his stomach. Matthew
and Valdivia were still near the garage.
Campbell walked toward the vehicle; he was crouched over and holding his
stomach. Torres moved from the passenger seat of the vehicle to the driver’s seat.
Campbell, whose shirt was bloody, entered the passenger seat of the vehicle and asked
Torres to take him to a hospital. While the vehicle was still parked, Torres then heard
Valdivia yell, “That’s his nephew. Get him.” 5 Defendant began shooting “at least one
shot” at the vehicle. In response, Torres used the gun Campbell gave him to fire one shot
at defendant; the gun then “jammed.” Torres drove off, and while en route to the
hospital, Torres put his hand on Campbell’s stomach, trying to hold Campbell’s “guts in.”
From photographic lineups, Torres identified defendant as the person who shot Campbell,
and Valdivia as the man who was “behind the shooter.”
Los Angeles County Sherriff’s Department Detective Carlos Gutierrez, the
prosecutor’s gang expert, testified the Puente Trece gang had approximately 768
members, and was divided into 16 different cliques. The gang’s primary activities
included drug sales and shootings (drive-by shootings, walk-up shootings, murders, and
assaults with deadly weapons). In 2012, two Puente Trece gang members were convicted
of assault with a firearm.
Detective Gutierrez opined the shootings were for the benefit of and in association
with Puente Trece, stating: “[T]he way the gang’s benefitting from [] this is that, by
having shot at this other individual, a member of their own clique, they are promoting or
benefitting the gang’s reputation of being violent. They are letting everybody know,
within their own clique as well as rival cliques that, hey, if we are willing to kill or
attempt to kill our own people, we’re willing to kill anybody. [¶] In addition to that,
with that reputation of being violent comes a cloud of fear. People within the

5

Torres referred to Campbell as his “uncle” even though they were not actually
related.
4
A42

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 5 of 17 Page ID
#:1448

neighborhood are going to be fearful to report this to police, because if they are willing to
kill their own gang members, they’re willing to kill other people.”

DISCUSSION

A.

Substantial Evidence Regarding Premeditation

1.

Standard of Review

“‘When considering a challenge to the sufficiency of the evidence to support a
conviction, we review the entire record in the light most favorable to the judgment to
determine whether it contains substantial evidence—that is, evidence that is reasonable,
credible, and of solid value—from which a reasonable trier of fact could find the
defendant guilty beyond a reasonable doubt.’ [Citation.] We determine ‘whether, after
viewing the evidence in the light most favorable to the prosecution, any rational trier of
fact could have found the essential elements of the crime beyond a reasonable doubt.’
[Citation.] In so doing, a reviewing court ‘presumes in support of the judgment the
existence of every fact the trier could reasonably deduce from the evidence.’ [Citation.]”
(People v. Edwards (2013) 57 Cal.4th 658, 715.)
Circumstantial evidence and reasonable inferences are included in determining
whether there is substantial evidence. (People v. Zamudio (2008) 43 Cal.4th 327, 357358; People v. Ugalino (2009) 174 Cal.App.4th 1060, 1064.) In determining whether
substantial evidence supports a conviction, “we do not reweigh the evidence, resolve
conflicts in the evidence, draw inferences contrary to the verdict, or reevaluate the
credibility of witnesses.” (People v. Little (2004) 115 Cal.App.4th 766, 771, citing
People v. Jones (1990) 51 Cal.3d 294, 314.)

2.

Applicable Law

“Attempted murder requires (1) a specific intent to kill and (2) a direct but
ineffectual act toward accomplishing the intended killing. [Citation.] Unlike murder, an
5
A43

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 6 of 17 Page ID
#:1449

attempted murder therefore requires express malice and cannot be proved based upon a
showing of implied malice. [Citation.] Also, unlike murder, attempted murder is not
divided into degrees. The prosecution, though, can seek a special finding that the
attempted murder was willful, deliberate, and premeditated, for purposes of a sentencing
enhancement. [Citations.]” (People v. Mejia (2012) 211 Cal.App.4th 586, 605.)
“‘“[P]remeditation” means thought over in advance. [Citations.] “The process of
premeditation . . . does not require any extended period of time. ‘The true test is not the
duration of time as much as it is the extent of the reflection.’ [Citation.]”’ [Citation.]” 6
(People v. Harris (2008) 43 Cal.4th 1269, 1286.) “[T]he requisite reflection need not
span a specific or extended period of time. Thoughts may follow each other with great
rapidity, and cold, calculated judgment may be arrived at quickly. [Citations.]” (People
v. Nelson (2011) 51 Cal.4th 198, 213.)
In People v. Anderson (1968) 70 Cal.2d 15, the court identified three categories of
evidence typically considered when determining if a defendant acted with premeditation
and deliberation: planning activity, motive, and the manner of killing. (Id. at pp. 26-27.)
“Anderson does not require that these factors be present in some special combination or
that they be accorded a particular weight, nor is the list exhaustive. Anderson was simply
intended to guide an appellate court’s assessment whether the evidence supports an
inference that the killing occurred as the result of preexisting reflection rather than
unconsidered or rash impulse. [Citation.]” (People v. Pride (1992) 3 Cal.4th 195, 247.)

3.

Analysis

Here, there is evidence of all three Anderson factors. Relevant to planning,
defendant, while in possession of a gun, approached Campbell, an original member of the
Puente Trece gang. After an argument ensued between the two of them, defendant shot
6

For purposes of determining whether sufficient evidence of premeditation exists,
there is no distinction between attempted murder and completed murder. (People v.
Herrera (1999) 70 Cal.App.4th 1456, 1462-1463, fn. 8, overruled on other grounds in
People v. Mesa (2012) 54 Cal.4th 191, 199.)
6
A44

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 7 of 17 Page ID
#:1450

at Campbell. This supports an inference that defendant planned to attack Campbell if
their “exchange” did not progress in a manner defendant considered satisfactory. 7
There was evidence defendant had a motive—here, a gang related motive—for
attempting to kill Campbell and Torres. There was a dispute within the Puente Trece
gang over the effort of the Blackwood clique to separate from the Puente Trece gang.
This caused violent shootings. The jury could reasonably infer this dispute within the
gang resulted in the death of one of its gang members the day before the incident, and it
appears Campbell believed Matthew had some “answers” as to how that happened. As
Detective Gutierrez opined, the shootings benefitted the gang by promoting the gang’s
reputation for violence and discouraging people in the neighborhood from reporting
crimes, particularly since the message here is the gang members are willing to kill their
fellow gang members.
Regarding the manner of the shootings, “[T]he method of killing alone can
sometimes support a conclusion that the evidence sufficed for a finding of premeditated,
deliberate murder.” (People v. Memro (1995) 11 Cal.4th 786, 863-864.) Campbell
visibly disarmed himself, and he said aloud to defendant, “I’m not armed. I just—I just
need to ask some questions.” Defendant therefore knew Campbell was not a threat.
Campbell was standing very close to defendant when the two began to argue.
Defendant fired four or five shots at Campbell at point blank range. The shots perforated

7

When evaluating the sufficiency of evidence for premeditation and deliberation,
the perpetrator’s decision to bring a gun to a shooting constitutes evidence of planning.
(People v. Romero (2008) 44 Cal.4th 386, 401 (Romero).) We recognize there is an
argument that defendant did not “bring the gun to the shooting” because it was Campbell
who sought out defendant. For purposes of assessing sufficiency of the evidence,
however, we must view the evidence in the light most favorable to the verdict. (People v.
Edwards, supra, 57 Cal.4th at p. 715.) In this respect, a rational trier of fact could have
concluded that defendant parted from his friends and walked toward Campbell after
making the conscious decision to maintain possession of the gun, thus, coming within the
confines of Romero. Nonetheless, as will be discussed, there was more than enough
evidence of the motive and manner of killing to support a finding of premeditation and
deliberation notwithstanding the possible infirmities corresponding to the evidence of
planning.
7
A45

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 8 of 17 Page ID
#:1451

Campbell’s stomach, resulting in his “guts” falling out. The jury could reasonably infer
defendant’s manner of shooting Campbell demonstrated a deliberate plan to kill him.
(People v. Koontz (2002) 27 Cal.4th 1041, 1082 [firing at a vital area at close range
supports finding of premeditation and deliberation].)
As to Torres, after defendant shot Campbell and Campbell struggled to return to
his car, Torres, with Campbell, attempted to drive away from the scene of the incident.
At that point, Valdivia yelled out to defendant, “That’s his nephew, get him too.”
Defendant then attempted to do just that by shooting at Torres. (People v. Sanchez
(2001) 26 Cal.4th 834, 849 [“Premeditation can be established in the context of a gang
shooting even though the time between the sighting of the victim and the actual shooting
is very brief”].)
This evidence of planning, motive, and manner of attempting to kill supports an
inference the attempted murders were the result of reflection. There was sufficient
evidence for a rational trier of fact to find defendant guilty of premeditated attempted
murder. Even if the evidence might also “reasonably be reconciled with a contrary
finding,” reversal would not be warranted. (People v. Stanley (1995) 10 Cal.4th 764,
792-793.)

B.

Substantial Evidence Regarding Gang Enhancements

1.

Applicable Law

To establish a gang enhancement, the prosecutor must prove two elements: (1) the
crime was “committed for the benefit of, at the direction of, or in association with any
criminal street gang,” and (2) the defendant had “the specific intent to promote, further,
or assist in any criminal conduct by gang members . . . .” 8 (§ 186.22, subd. (b)(1).) With
respect to the second element, “if substantial evidence establishes that the defendant
intended to and did commit the charged felony with known members of a gang, the jury

8

Defendant concedes that the first element was satisfied.
8
A46

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 9 of 17 Page ID
#:1452

may fairly infer that the defendant had the specific intent to promote, further, or assist
criminal conduct by those gang members.” (People v. Albillar (2010) 51 Cal.4th 47, 68,
italics added.)

2.

Analysis

The jury found true the gang allegations as to the convictions for attempted
murder of Campbell (count 1), attempted murder of Torres (count 2), and shooting at an
occupied motor vehicle (count 3). There was insufficient evidence defendant’s attempted
murder of Campbell was committed with other gang members. Matthew and Valdivia,
the other gang members with defendant, were simply at the scene of the incident. 9 There
was no evidence Matthew or Valdivia participated in the attempted murder of
Campbell. 10
There however was substantial evidence defendant’s attempted murder of Torres,
and his shooting at an occupied motor vehicle, were committed with at least one other
gang member. Torres, i.e., a self-described nephew of Campbell, was specifically
targeted by defendant and his fellow gang member—Valdivia. After defendant shot
Campbell, Valdivia yelled, “That’s his nephew. Get him.” Defendant complied by
shooting “at least one shot” at the vehicle as Torres sat in the driver’s seat. A rational
trier of fact could have concluded it was Valdivia’s encouragement that cause defendant
to fire toward Torres. There was sufficient evidence defendant committed these offenses
with Valdivia thereby satisfying the intent component of the enhancement.

9

We use the term “at the scene” rather loosely as the record is not specific in this
regard. Torres testified, when Campbell exited the car, defendant and Campbell walked
toward one another while Matthew and Valdivia “stayed back by the garage.” Thus,
although Matthew and Valdivia were at the general scene, it appears that they were
positioned in a location different from defendant and Campbell when Campbell was shot.
10

Notably, although Valdivia was charged in the information with attempted murder
of Torres and shooting at a vehicle, neither Matthew nor Valdivia were charged with the
attempted murder of Campbell.
9
A47

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 10 of 17 Page ID
#:1453

C.

Granting Defendant’s Request to Represent Himself

1.

Standard of Review

“‘In determining on appeal whether the defendant invoked the right to selfrepresentation, we examine the entire record de novo. [Citation.]’ [Citation.]” (People
v. Stanley (2006) 39 Cal.4th 913, 932.)

2.

Applicable Law

“‘A defendant in a criminal case possesses two constitutional rights with respect to
representation that are mutually exclusive. A defendant has the right to be represented by
counsel at all critical stages of a criminal prosecution. [Citations.] At the same time, the
United States Supreme Court has held that because the Sixth Amendment grants to the
accused personally the right to present a defense, a defendant possesses the right to
represent himself or herself. [Citation.]’ [Citation.]” (People v. James (2011) 202
Cal.App.4th 323, 328-329.)
Faretta v. California (1975) 422 U.S. 806 (Faretta) “holds that the Sixth
Amendment grants an accused personally the right to present a defense and thus to
represent himself upon a timely and unequivocal request. [Citation.] The right to selfrepresentation obtains in capital cases as in other criminal cases [citation], and may be
asserted by any defendant competent to stand trial—one’s technical legal knowledge, as
such, being irrelevant to the question whether he knowingly and voluntarily exercises the
right [citations]. The right to representation by counsel persists until a defendant
affirmatively waives it, and courts indulge every reasonable inference against such
waiver. [Citation.]” (People v. Dunkle (2005) 36 Cal.4th 861, 908-909, disapproved on
another ground in People v. Doolin (2009) 45 Cal.4th 390, 421, fn. 22.)
A request for self-representation must be unequivocal. (People v. Doolin, supra,
45 Cal.4th at p. 453; People v. Marshall (1997) 15 Cal.4th 1, 22-23, 27 (Marshall).)
When determining whether a request for self-representation is unequivocal, “courts must
determine ‘whether the defendant truly desires to represent himself or herself.’
10
A48

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 11 of 17 Page ID
#:1454

[Citation.] Thus, ‘an insincere request or one made under the cloud of emotion may be
denied.’ [Citation.]” (Marshall, supra, 15 Cal.4th at pp. 21, 23; People v. Tena (2007)
156 Cal.App.4th 598, 607.) All the facts surrounding a defendant’s request for selfrepresentation must “constitute an articulate and unmistakable invocation” of that right.
(People v. Danks (2004) 32 Cal.4th 269, 297, citing Marshall, supra, 15 Cal.4th at p. 21.)

3.

Background

On December 9, 2014, after the November 7, 2014 jury verdicts, the trial court
received a letter written by defendant, 11 addressed to the trial court. In it, defendant
stated he did not receive a fair trial because a witness was improperly coached and
another witness testified falsely. Defendant complained his trial counsel failed to prove
those witnesses “lied,” failed to use defendant’s notes during his cross-examination of
those witnesses, “did not fight for [defendant’s] innocence,” and “was more a negotiator
than anything else.” Defendant claimed that at one point his trial counsel walked out on
him and told him to find another lawyer, but defendant did not know how to get another
lawyer so defendant allowed his trial counsel to continue to represent him which led to
defendant receiving ineffective assistance of counsel. Defendant stated in the letter, “I
needed help with a [l]awyer to represent me and I still do. [¶] I would please like to file
motions for a [r]etrial with a [s]tate[-a]ppointed [l]awyer so we can look through my case
and prove my innocence.”
On January 8, 2015, the day set for a court trial on the prior conviction allegations
and hearings on formal probation and sentencing, defendant and his counsel conferred off
the record. Defendant’s counsel said, “Your Honor . . . before we proceed, [defendant] is
indicating to me that he would like the court to read a letter that he addressed to the court.

11

Defendant wrote the letter although he was represented by counsel. The record
does not contain the original letter. The parties stipulated during record correction
proceedings that a reproduction of the original letter accurately reflected its contents.
11
A49

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 12 of 17 Page ID
#:1455

I’ve reviewed it. He is requesting pro per status to handle his case at this point on. [¶] Is
that correct, [defendant]?” Defendant replied, “Yes, that’s correct.”
The trial court explained that it had received a handwritten letter purportedly
prepared by defendant, but did not read it because it was an improper ex parte
communication with the court. Upon the trial court’s inquiry, defendant stated he wanted
the trial court to read the letter. The trial court then stated, “Before I do that, [defendant],
your attorney, at least at this time . . . has mentioned that you’re making a request to
represent yourself although at a late stage of the case. This is for sentence and trial on the
prior convictions. Are you absolutely certain that is what you wish to do?” Defendant
responded, “Yes. I wish to do that at this time, Your Honor.”
The trial court continued, “Well, before I can approve your request, I have to make
certain that you understand what you’re getting yourself into and that you understand you
still have a right to have counsel represent you at all critical stages of your case, including
today’s hearings. You need to understand that. More importantly, you need to waive and
give up those rights. Those are constitutional protections that you have that. Evidently,
you’re willing to give up [those protections] and proceed on your own as your own
counsel. [¶] You have to understand the pitfalls that you will certainly experience by
representing yourself, and you will receive no assistance by anyone. You will not have
co-counsel. You will not have an attorney [to] help you. You will not have the court’s
help. You’re on your own. So, again, with that additional information, is it still your
desire to go forward and represent yourself[?]” Defendant replied, “Yes, Your Honor.”
The trial court then stated, “Okay. Well, I need for you to fill out certain
documents before I proceed on that request. It’s called a waiver of right to counsel and
other things you need to understand and acknowledge. We’ll have to recess for
about . . . 15 minutes, to give [defendant] an opportunity to complete the Faretta
waivers . . . .” After the recess, the trial court stated, “The court recessed the matter to
allow [defendant] to complete a Faretta waiver advisement, waiver of right to counsel in
order for the court to entertain his motion for pro per status and to represent himself from
this point on albeit it’s post-jury trial conviction.” The trial court confirmed that
12
A50

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 13 of 17 Page ID
#:1456

defendant signed the completed waiver of rights form. Defendant confirmed that he
reviewed the document, “understood the rights that [were] mentioned on [that]
document,” and was “waiving and giving up those rights in order to represent [himself]
as [his] own lawyer.”
The trial court continued, “The consequences [of] you doing so, again, as I’ve
mentioned earlier that you will receive absolutely no attorney assistance in this matter
pertaining to the rules of law, rules of procedure that you’ll be required to know and
follow in order to represent yourself from this point on. [¶] Do you understand that?”
Defendant replied, “Yes, I do, Your Honor.”
The trial court then said, “Having all those consequences in mind, is it still your
desire to waive your constitutional right to have counsel represent you free of charge?”
Defendant responded, “Yes.” The trial court accepted defendant’s waiver and allowed
defendant to proceed “as [his] own lawyer.”
Immediately thereafter, defendant represented himself at the court trial on
defendant’s prior conviction allegations. At the conclusion of the court trial, the trial
court found the prior conviction allegations true.
The trial court then asked defendant if he still wanted the court to read the letter,
and defendant said he did. The trial court read the letter, and said, “You bring many
issues to the court, one of which causes me concern because in the letter you are
requesting the court appoint you counsel. Well, you’ve already given up your right to
have an attorney so I cannot grant that request unless you wish to have an attorney
represent you. But . . . you just had the court relieve [your] state-appointed lawyer . . . .
So that is no longer an issue. You are on your own so whatever motion for retrial, as
you’re describing it, must be done by you. [¶] You understand that now; correct?”
Defendant responded, “Yes, I do, Your Honor.”
After a recess, the trial court appointed “standby counsel out of an abundance of
caution in the event [defendant] changes his mind and chooses to exercise his right to
have counsel despite his request, which was granted today to represent himself in pro
per.” Standby counsel was present and accepted the appointment. Defendant continued
13
A51

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 14 of 17 Page ID
#:1457

to represent himself in two subsequent hearings and made several motions, including a
motion for transcripts, a request for discovery, a motion for additional money for pro per
funds, and a motion for a continuance.

4.

Analysis

Defendant’s request for self-representation was unequivocal. At the January 8,
2015, hearing, defendant was present and, after he and his counsel conferred off the
record, defendant, through his counsel, requested to represent himself. The trial court
confirmed the request directly with defendant. Thereafter, the trial court inquired of
defendant whether he was “absolutely certain that he wanted to represent himself, and
defendant said, “Yes. I wish to do that at this time, Your Honor.”
The trial court, in making “certain” defendant understood what he was “getting
[himself] into,” explained the “pitfalls” of representing himself because he would not
have “assistance by anyone”; he was “on [his] own” and would not have the assistance of
an attorney. “With that additional information,” the trial court asked defendant whether it
was still his “desire to go forward and represent yourself[?]” Defendant replied, “Yes,
Your Honor.”
The trial court stated, in defendant’s presence, it recessed the matter “to allow
defendant to complete a Faretta waiver advisement, waiver of right to counsel in order
for the court to entertain his motion for pro per status and to represent himself from this
point on . . . .” Defendant initialed and signed the waiver of rights form. 12 He confirmed

12

The waiver of rights form is included in the record on appeal and we have
reviewed it. It is three pages long and divided into five somewhat self-explanatory
sections—constitutional rights, personal information, dangers and disadvantages of selfrepresentation, charges and consequences, and court’s advice and recommendation. The
form lists 28 advisements and instructs defendant to initial the box after each advisement
only if he “understand[s] and agree[s] with it.” At the end of the form, above his
signature, is the following: “I hereby certify that I have read, understood and considered
all of the above warnings included in this petition and I still want to act as my own
attorney. I freely and voluntarily give up my right to have a professional attorney
represent me.”
14
A52

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 15 of 17 Page ID
#:1458

he reviewed the document, “understood the rights that [were] mentioned on [the]
document,” and was “waiving and giving up those rights in order to represent [himself]
as [his] own lawyer.”
The trial court reiterated for defendant that “[t]he consequences” of his waiving
his rights specified in the document was he would “receive absolutely no attorney
assistance in this matter pertaining to the rules of law, rules of procedure that you’ll be
required to know and follow in order to represent yourself from this point on.” In
response to the trial court’s inquiry, defendant again said that he “underst[ood] that.”
Defendant also confirmed, “Having all those consequences in mind, it [was] still [his]
desire to waive [his] constitutional right to have counsel represent [him] free of charge.”
Once the trial court read defendant’s letter, the trial court noted the letter contained
a request for state-appointed counsel and asked defendant if, despite the letter, he
understood he was now on his own. Defendant said he understood he was on his own,
made no objection to proceeding on his own, and made no request for substitute counsel.
The trial court appointed “standby counsel” in the event defendant changed his mind and
choose to exercise his right to have counsel, but there is no indication in the record
defendant ever changed his mind and requested the appointment of counsel. Defendant
continued to represent himself in two subsequent hearings, and the record does not show,
at any time after the trial court granted defendant’s request to represent himself, he
requested the appointment of counsel.
The only request regarding representation defendant made in open court was for
self-representation. Even after the trial court read defendant’s letter, which it had
received about one month before, defendant said he understood he was “on [his] own,
and did not request the appointment of new counsel. Indeed, because the trial court
appointed “standby counsel” in the event defendant changed his mind and choose to
exercise his right to have counsel, the trial court was prepared to appoint standby counsel
as defendant’s counsel. That never occurred; defendant never changed his mind.

15
A53

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 16 of 17 Page ID
#:1459

D.

Correction Regarding Defendant’s Actual Custody Credit

A defendant is entitled to credit for all days in custody commencing with the day
of arrest (People v. Taylor (2004) 119 Cal.App.4th 628, 645) and including partial days
and the day of sentencing (People v. Browning (1991) 233 Cal.App.3d 1410, 1412;
People v. Fugate (1990) 219 Cal.App.3d 1408, 1414). The trial court stated defendant
was entitled to 787 days of presentence custody credits, consisting of 685 days of actual
custody credit and 102 days of conduct credit.
Defendant however was arrested on May 23, 2013 and was in custody though his
sentencing hearing on April 9, 2015—totaling 687 days of actual custody, not 685.
Defendant is also entitled to good conduct credit computed at 15 percent of that actual
time in custody. (§ 2933.1 [“any person who is convicted of a felony offense listed in
subdivision (c) of Section 667.5 shall accrue no more than 15 percent of worktime
credit”].) Defendant therefore is entitled to 103 days of conduct credit, not 102.
Thus, the judgment should be modified, and the abstract of judgment must be amended,
to reflect defendant is entitled to receive 790 days of presentence custody credits,
consisting of 687 days of actual custody credit and 103 days of conduct credit.

16
A54

Case 2:17-cv-03830-JVS-PJW Document 22-15 Filed 11/21/17 Page 17 of 17 Page ID
#:1460

DISPOSITION

We reverse the portion of the judgment concerning the gang enhancement on the
conviction for attempted murder of Campbell (count 1). The matter is remanded for the
trial court to modify the judgment and amend the abstract of judgment to reflect
defendant is entitled to receive 790 days of presentence custody credits, consisting of 687
days of actual custody credit and 103 days of conduct credit. The trial court is to forward
a copy of the amended abstract of judgment to the Department of Corrections and
Rehabilitation. In all other respects, the judgment is affirmed.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS

KUMAR, J.

We concur:

TURNER, P. J.

BAKER, J.

Judge of the Superior Court of the County of Los Angeles, assigned by the Chief
Justice pursuant to article VI, section 6 of the California Constitution.
17
A55

Case: 19-55006, 09/03/2019, ID: 11419613, DktEntry: 19, Page 11 of 14

JN 1
A56

Case: 19-55006, 09/03/2019, ID: 11419613, DktEntry: 19, Page 12 of 14

JN 2
A57

